Report No. D-2011-093               July 27, 2011




       Active Duty Military Personnel Accounts Were
    Generally Valid and Secure, but DoD May Have Made
                     Improper Payments
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CAC                           Common Access Card
DFAS                          Defense Finance and Accounting Service
DJMS-AC                       Defense Joint Military Pay System–Active Component
DoD FMR                       DoD Financial Management Regulation
MEPS                          Military Entrance Processing Station
SSA                           Social Security Administration
SSN                           Social Security Number
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGIN IA 22202-4704 


                                                                                       July 27, 2011

MEMORANDUM FOR ASSIST ANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 Active Duty Military Personnel Accounts Were Generally Valid and Secure, but
           DoD May Have Made Improper Payments (Report No. D-20 11-093)

We are providing this report for your information and use. From January 2005 through
December 2009, the Defense Joint Military Pay System-Active Component contained nearly
2. 1 million active duty military personnel accounts, with basic pay totaling more than
$232 billion. Although DoD generally made payments to valid accounts and ensured that they
were adequately secured, it did not ensure that the Defense Joint Military Pay System-Active
Component contained only valid active duty military personnel accounts.

We considered comments from the Chief, Current Operations Branch, Department of the Army;
the Assistant Secretary of the Navy (Manpower and Reserve Affairs); the Deputy Director of
Staff, U.S. Air Force Personnel Center; and the Deputy Director, Operations, Defense Finance
and Accounting Service, on a draft of this report when preparing the final rep0l1. COillillents on
the draft of this report conformed to the requirements of DoD Directive 7650.3 and left no
ulU'esolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(614) 751-2913.




                                             Principal Assistant Inspector General
                                              for Auditing
Report No. D-2011-093 (Project No. D2010-D000FC-0164.000)	                                July 27, 2011


              Results in Brief: Active Duty Military
              Personnel Accounts Were Generally Valid
              and Secure, but DoD May Have Made
              Improper Payments
                                                       Accounting Service (DFAS) Military Pay did
What We Did                                            not maintain personnel file documentation to
Our objective was to determine whether DoD             substantiate the potentially invalid accounts
made payments to valid active duty military            reviewed. As a result, DFAS made potentially
personnel accounts. Specifically, we validated         improper payments of $4.2 million∗ from
selected military personnel accounts and               January 2005 through December 2009.
determined whether account information was
adequately secured. We did not verify the              What We Recommend
accuracy of the payments.                              The Commander, U.S. Army Human Resources
                                                       Command; Chief of Naval Personnel; and
To address our objective, we reviewed nearly           Commander, U.S. Air Force Personnel Center,
2.1 million active duty military personnel             should review the remaining potentially invalid
accounts, with basic pay totaling more than            active duty military personnel accounts to ensure
$232 billion, to identify potentially invalid          that they are valid, and if they are not, take
accounts. We identified 1,159 potentially              appropriate corrective action. In addition, the
invalid active duty military personnel accounts,       Director, DFAS, should assist the Military
with basic pay totaling more than $76.5 million.       Services in validating the remaining potentially
We defined potentially invalid accounts as those       invalid accounts, and if applicable, recover
that contained                                         improper payments made to invalid active duty
                                                       military personnel accounts.
 •	 invalid Social Security numbers,
 •	 deceased military personnel that were paid         Management Comments and
    after their reported date of death,                Our Response
 •	 military personnel that were never issued
    Common Access Cards, and                           The Chief, Current Operations Branch,
                                                       Department of the Army; the Assistant
 •	 multiple military personnel that shared the
    same bank account.                                 Secretary of the Navy (Manpower and Reserve
                                                       Affairs); the Deputy Director of Staff, U.S. Air
                                                       Force Personnel Center; and the Deputy
What We Found                                          Director, Operations, Defense Finance and
DoD generally made payments to valid active            Accounting Service, agreed with the
duty military personnel accounts and adequately        recommendations in the report, and their
secured accounts by restricting access to              comments were responsive. Please see the
classified information. However, DoD did not           recommendations table on the back of this page.
ensure that the Defense Joint Military Pay
System–Active Component contained only valid
active duty military personnel accounts. This
occurred because the Military Services’
personnel offices and the Defense Finance and          ∗
                                                        See Appendix B for the statistical sample and projection
                                                       plan.
                                                   i
Report No. D-2011-093 (Project No. D2010-D000FC-0164.000)             July 27, 2011


Recommendations Table

      Management                 Recommendations             No Additional Comments
                                Requiring Comment                  Required
Commander, U.S. Army                                        1
Human Resources Command
Chief of Naval Personnel                                    2
Commander, U.S. Air Force                                   3
Personnel Center
Director, Defense Finance                                   4
and Accounting Service




                                          ii
Table of Contents

Introduction	                                                                      1


      Audit Objective                                                              1

      Background on Establishing Active Duty Military Payroll Accounts             1

      Internal Controls Over Validating Active Duty Military Personnel Accounts    3


Finding.	 DoD Needs to Identify and Review Potentially Invalid Active Duty 

          Military Personnel Accounts                                              4


      DJMS-AC May Contain Invalid Accounts                                         4

      DoD Could Not Substantiate the Validity of All Accounts                      6

      DFAS Made Potentially Improper Payments                                      7

      Management Comments on the Finding, and Our Response                         7

      Recommendations, Management Comments, and Our Response                       8


Appendices

      A. 	Scope and Methodology                                                   10 

             Use of Computer-Processed Data                                       12 

             Use of Technical Assistance                                          12 

      B. Statistical Sample and Projection Plan	                                  13 


Management Comments

      Department of the Army                                                      14 

      Department of the Navy                                                      15 

      Department of the Air Force                                                 18 

      Defense Finance and Accounting Service                                      20 

Introduction
Audit Objective
Our objective was to determine whether DoD made payments to valid active duty
military personnel accounts. Specifically, we validated selected military personnel
accounts and determined whether account information was adequately secured. We did
not verify the accuracy of the payments. See Appendix A for a discussion of the scope
and methodology related to the objective.

Background on Establishing Active Duty Military
Payroll Accounts
As of December 31, 2009, the U.S. Army, U.S. Navy, and U.S. Air Force included more
than 1.2 million active duty military personnel. Active duty military personnel enter the
U.S. Armed Forces as enlisted members or officers. Nearly one million of the active duty
military personnel were enlistees, and the remaining were officers.
The enlistment process begins when a recruit meets with a recruiting officer. During the
meeting, the recruiting officer reviews the recruit’s original Social Security card and birth
certificate and prepares a DD Form 1966, “Record of Military Processing–Armed Forces
of the United States.” The recruit and recruiting officer certify that the name, Social
Security number (SSN), and date of birth are accurate. The recruiting officer uses the
DD Form 1966 to establish a skeleton personnel account in the Military Service’s
electronic recruiting personnel system.
Each Military Service has its own electronic personnel recruiting system.

   •	 The U.S. Army uses the Army Recruiting Information Support System.
   •	 The U.S. Navy uses the Personalized Recruiting for Immediate and Delayed
      Enlistment System.
   •	 The U.S. Air Force uses the Air Force Recruiting Information Support System.

The recruiting officer electronically forwards the recruit’s personnel information to the
designated Military Entrance Processing Station (MEPS) and schedules the new recruit
for enlistment processing at the appropriate MEPS.

MEPS Enlistment Process
The Commander, U.S. Military Entrance Processing Command, oversees enlistment
processing at 65 MEPSs across the country. The MEPSs receive electronic transfers of
new recruit personnel information from the U.S. Army recruiting personnel systems into
the U.S. Military Entrance Processing Command Integrated Resource System and from
the U.S. Air Force recruiting personnel system through the Military Personnel Data
System. MEPS personnel manually enter U.S. Navy recruiting personnel information
into the U.S. Military Entrance Processing Command Integrated Resource System.



                                             1

MEPS personnel conduct background screening for new recruits. They interview each
recruit, review enlistment documents, and send SSNs to the Social Security
Administration (SSA) for verification. They also send alien registration numbers to the
U.S. Citizenship and Immigration Services for verification. MEPS personnel update the
results of the evaluation and verification process in the U.S. Military Entrance Processing
Command Integrated Resource System for the U.S. Army and U.S. Navy recruits, and in
the Military Personnel Data System for Air Force recruits.
To complete the enlistment process, MEPS personnel administer the Oath of Enlistment,
and the recruits sign the DD Form 4, “Enlistment/Reenlistment Document–Armed Forces
of the United States.” The recruits then become active duty military members and
officially part of the U.S. Armed Forces. The active duty military members then report to
their respective Military Service recruit training center.

Military Services’ Process for Establishing Payroll Accounts
For enlistees, recruit training center personnel review the active duty military members’
enlistment paperwork and enter the complete personnel file information into the Military
Service’s personnel system. The U.S. Army uses the Reception Battalion Automated
Support System, the U.S. Navy uses the Navy Enlisted System, and the U.S. Air Force
uses the Military Personnel Data System. Each Military Service also has its own
electronic personnel system for officer appointments. These systems electronically
transfer personnel files to the Defense Finance and Accounting Service (DFAS) Military
Pay to establish an active duty military payroll account.

DFAS Military Pay Processing
DFAS Military Pay is responsible for paying all active duty U.S. Army, U.S. Navy, and
U.S. Air Force military personnel. DFAS Military Pay personnel process the active duty
military payroll at two locations: Cleveland, Ohio, for all active duty U.S. Navy
personnel and Indianapolis, Indiana, for all active duty U.S. Army and U.S. Air Force
personnel.

DFAS Military Pay personnel maintain two payroll systems: the Defense Joint Military
Pay System–Active Component (DJMS-AC) and DJMS–Reserve Component. 1
DJMS-AC includes the active duty military member’s name, SSN, bank account
information, and other military payroll account information and is designed to
automatically process bimonthly payroll for active duty military personnel.

DFAS Military Pay personnel conduct a prepayroll review the day before payroll is
processed. They review leave and earnings statements as well as substantial changes in
payroll from the previous month. Next, the certifying official reviews payroll totals and
certifies the payroll. Once certified, the DFAS Military Pay personnel send an



1
 These are the official payroll systems for U.S. Army, U.S. Navy, and U.S. Air Force active and reserve
personnel. The Marine Corps Total Force System, which we did not audit, contains the Marine Corps
active and reserve personnel data.


                                                    2

authorization and voucher to the DFAS Disbursing Office requesting release of payment.
Finally, DFAS Disbursing Office personnel disburse payroll to active duty military
personnel.

Internal Controls Over Validating Active Duty Military
Personnel Accounts
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness as it relates to the audit objective. The Military Services’ personnel
offices and DFAS Military Pay could not provide us with personnel file documentation to
substantiate potentially invalid accounts. We will provide a copy of the final report to the
senior officials responsible for internal controls in the U.S. Army, U.S. Navy,
U.S. Air Force, and DFAS.




                                             3

Finding. DoD Needs to Identify and Review
Potentially Invalid Active Duty Military
Personnel Accounts
DoD generally made payments to valid active duty military personnel accounts and
adequately secured accounts by restricting access to classified information. However,
DoD did not ensure that DJMS-AC contained only valid active duty military personnel
accounts. This occurred because the Military Services’ personnel offices and DFAS
Military Pay did not maintain personnel file documentation to substantiate the potentially
invalid accounts reviewed. As a result, DFAS made potentially improper payments of
$4.2 million2 from January 2005 through December 2009.

DJMS-AC May Contain Invalid Accounts
DoD generally made payments to valid active duty military personnel accounts and
adequately secured accounts by restricting access to classified information. However,
DoD did not ensure that DJMS-AC contained only valid active duty military personnel
accounts. We reviewed nearly 2.1 million active duty military personnel accounts, with
basic pay totaling more than $232 billion, to identify potentially invalid accounts. We
identified a universe of 1,159 potentially invalid active duty military personnel accounts,
with basic pay totaling more than $76.5 million. We defined potentially invalid accounts
as accounts that contained invalid SSNs, deceased military personnel that were paid after
their reported date of death, military personnel that were never issued Common Access
Cards (CACs), and multiple military personnel that shared the same bank account. We
identified a projected 46 active duty military personnel accounts, valued at $4.2 million,
that were potentially invalid.

DJMS-AC Contained Invalid SSNs
DJMS-AC contained active duty military personnel accounts with invalid SSNs. The
SSA outlines the structure of the SSN and the sequence in which SSNs are issued. SSNs
have nine digits. The first three digits are called the area number and are assigned by
State. The next two digits are called the group number and are assigned for
administrative purposes. The final four digits are called the serial number and are issued
sequentially.

SSA guidelines specify the maximum values that have been used to create area and group
number combinations as a way to help employers verify new employees’ SSNs.
According to the SSA, any SSN that exceeds the guidelines is considered invalid. For
example, DJMS-AC contained an active duty military personnel account with an area
number of “873” that was paid $4,061. However, SSA has never issued an SSN with an
area number greater than “772.”



2
    See Appendix B for the statistical sample and projection plan.


                                                       4

DJMS-AC Contained Military Personnel Receiving Pay Who
Were Deceased
DJMS-AC contained accounts of deceased military personnel that received payments
after their reported date of death. Using the May 2010 SSA Death Master File, which
contains more than 86 million death records and is updated weekly, the Defense
Manpower Data Center identified 8,536 deceased military personnel accounts contained
in DJMS-AC. We conducted further analysis to identify records for deceased military
personnel that were paid after their reported date of death. For example, one active duty
military member had a reported date of death of February 2009 but received more than
$48,099 in pay through December 2009.

The audit sample contained four accounts of deceased military personnel that were paid
after their reported date of death. DoD provided support validating all four accounts.
Although all four accounts sampled were validated, the possibility exists that invalid
accounts are included in the remaining deceased military personnel accounts that the
audit team did not review.

DJMS-AC Contained Military Personnel Who Were Never
Issued CACs
DJMS-AC contained accounts of active duty military personnel that were never issued
CACs. CACs are the standard identification card for active duty military personnel, DoD
civilian employees, eligible contractor personnel, and eligible foreign nationals. They are
the principal identification that allows access to buildings, facilities, installations, and
controlled spaces. CACs are also used to access DoD computer networks and systems in
the unclassified environment. To receive a CAC, eligible employees must be entered into
the Defense Enrollment Eligibility Reporting System.

The Defense Manpower Data Center compared accounts in DJMS-AC to accounts in the
Defense Enrollment Eligibility Reporting System and identified the accounts of personnel
that were never issued CACs. For example, DJMS-AC contained an account for a
military member who was never issued a CAC but received $120,418 in basic pay during
a 12-month period.

Multiple Active Duty Military Personnel Shared the Same
Bank Account
DJMS-AC contained accounts where multiple active duty military personnel shared the
same bank account. Each military personnel account is assigned one bank account type,
account number, and routing number for net pay within DJMS-AC. Couples within the
U.S. Armed Forces commonly share the same banking information for receiving their net
pay. However, DJMS-AC included bank accounts to which at least three active duty
military personnel were sending net pay. For example, seven unique active duty military
members were depositing their net pay into one bank account for a total of $731,861 from
January 2005 through November 2009.




                                             5

DoD Could Not Substantiate the Validity of All Accounts
The Military Services’ personnel offices and DFAS Military Pay could not provide us
with personnel file documentation to substantiate the potentially invalid accounts
reviewed. DoD Regulation 7000.14-R, “Financial Management Regulation” (DoD
FMR), Volume 6A, Chapter 2, “Financial Reports Roles and Responsibilities,”
November 2008, requires the Military Services to ensure they maintain documentation
supporting all data generated and input into finance and accounting systems or submitted
to DFAS.

We requested personnel file documentation from the U.S. Army, U.S. Navy, and
U.S. Air Force personnel offices for a statistical sample of 182 of the 1,159 potentially
invalid active duty military personnel accounts. After 3 months, the Military Services’
personnel were able to substantiate the validity of 120 of the 182 accounts. Specifically,
the Military Services’ personnel offices provided DD Forms 4 and 1966 to substantiate
the validity of some of the sample accounts. The DD Forms 4 and 1966 validated the
active duty military personnel’s name and SSN.

We also obtained class rosters from the U.S. Military Academy at West Point and the
U.S. Air Force Academy to validate foreign cadets. Foreign cadets are assigned
temporary SSNs that were never issued by SSA. Once foreign cadets receive a valid
SSN, the Military Services personnel update the account.

We asked DFAS Military Pay personnel to substantiate the validity of the remaining
62 accounts. DoD FMR 7000.14-R, volume 6A, chapter 2, requires DFAS to ensure
complete and documented audit trails. DFAS Military Pay personnel provided military
pay account information to substantiate the validity of 55 of the 62 accounts. For the
55 accounts:

       •   invalid SSNs had been corrected,
       •   payments made to deceased military personnel had been recovered, and
       •   short-term active duty military personnel were not issued CACs.

DFAS Military Pay personnel were not able to validate the remaining 7 accounts,
resulting in 46 potentially invalid accounts. 3 These accounts exist in the
1,159 potentially invalid active duty military personnel accounts. The Table summarizes
the potentially invalid DJMS-AC accounts by Military Service.




3
    See Appendix B for the statistical sample and projection plan.


                                                       6

        Summary of Potentially Invalid DJMS-AC Accounts by Military Service
                                     Potentially Invalid Accounts
       Military         Initially            Validated              Not
        Service        Identified                                 Validated
    U.S. Army               716                  106                 610
    U.S. Navy               163                   19                 144
    U.S. Air Force          280                   50                 230
     Total                1,159                  175                984*
*Includes the 7 of the 182 accounts that were reviewed and not validated during the audit.

The Military Services’ personnel offices should review the remaining potentially invalid
accounts to ensure that they are valid, and if they are not, take appropriate corrective
action. DFAS Military Pay personnel should assist the Military Services in validating the
remaining potentially invalid accounts.

DFAS Made Potentially Improper Payments
DFAS made potentially improper payments of $4.2 million from January 2005 through
December 2009. Public Law 111-204, “Improper Payments Elimination and Recovery
Act of 2010,” July 22, 2010, 4 identifies payments made to ineligible recipients as
improper payments. DFAS Military Pay personnel should make every effort to recover
the improper payments made to invalid active duty military personnel accounts.

We requested that the Defense Criminal Investigative Service review the seven
potentially invalid active duty military personnel accounts that were not validated.

Management Comments on the Finding and Our
Response
Management Comments
The Assistant Secretary of the Navy (Manpower and Reserve Affairs) provided
comments on the finding and internal control weakness. He agreed with the finding and
stated that internal controls have been strengthened to ensure that adequate
documentation exists within a new recruit’s personnel files. For the full text of the
Assistant Secretary of the Navy (Manpower and Reserve Affairs) comments, see the
Management Comments section of the report.

Our Response
We appreciate the comments on the finding from the Assistant Secretary of the Navy
(Manpower and Reserve Affairs).



4
  Although the Improper Payments statute was revised, we did not identify any changes that would affect
the results of the review.


                                                     7

Recommendations, Management Comments, and
Our Response
1. We recommend that the Commander, U.S. Army Human Resources Command,
review the remaining potentially invalid Army active duty military personnel
accounts to ensure that they are valid, and if they are not, take appropriate
corrective action.

Department of the Army Comments
The Chief, Current Operations Branch, responded for the Commander, U.S. Army
Human Resources Command. He agreed and stated the Army Human Resources
Command would coordinate with the Deputy Chief of Staff, Plans and Resources, to
review the potentially invalid Army accounts. As of June 10, 2011, the Army Human
Resources Command determined that approximately 200 of the 610 potentially invalid
accounts could not be found and 43 of the accounts contained invalid SSNs. The review
of these remaining potentially invalid accounts will be completed by July 8, 2011. We
contacted Army officials after July 8, 2011 and received confirmation that it had
completed the review of the remaining accounts.

2. We recommend that the Chief of Naval Personnel review the remaining
potentially invalid Navy active duty military personnel accounts to ensure that they
are valid, and if they are not, take appropriate corrective action.

Department of the Navy Comments
The Assistant Secretary of the Navy (Manpower and Reserve Affairs), responded for the
Chief of Naval Personnel. He agreed and stated the Navy Personnel Command would
review the remaining 144 potentially invalid Navy active duty personnel accounts. The
analysis of the remaining potentially invalid accounts will be completed by
September 30, 2011. For those SSNs determined to be valid, the Navy Personnel
Command will ensure that personnel file documentation is contained in the official
master personnel file. If any Navy active duty personnel accounts are found to be
invalid, the Navy will coordinate with the Director, DFAS, to recover improper
payments. Corrective actions will be complete by June 30, 2012.

3. We recommend that the Commander, U.S. Air Force Personnel Center, review
the remaining potentially invalid Air Force active duty military personnel accounts
to ensure that they are valid, and if they are not, take appropriate corrective action.

Department of the Air Force Comments
The Deputy Director of Staff, U.S. Air Force Personnel Center, responded for the
Commander, U.S. Air Force Personnel Center. He agreed and stated that the Air Force
reviewed the list of 230 potentially invalid Air Force records and completed its
investigation of records on June 9, 2011. His response included details from the Air
Force review of accounts with invalid SSNs, deceased military personnel that were paid
after their reported date of death, military personnel that were never issued Common
Access Cards, and multiple military personnel that shared the same bank account. The


                                           8

review found no discrepancies. The Deputy Director of Staff also stated that they
perform a monthly reconciliation with the Defense Manpower Data Center to identify
deceased members showing in a pay status in the personnel data system.

The Deputy Director of Staff noted that the Air Force Personnel Center relies on the
U.S. Air Force Academy and DFAS for all information related to the international cadets
attending the Academy, as foreign students are not in the Military Personnel Data
System. He also noted that DFAS is the source for the information regarding multiple
accounts, payments, and collections.

4. We recommend that the Director, Defense Finance and Accounting Service assist
the Military Services in validating the remaining potentially invalid accounts, and if
applicable, recover improper payments made to invalid active duty military
personnel accounts.

Defense Finance and Accounting Service Comments
The Deputy Director, Operations, DFAS, responded for the Director, DFAS. He agreed
and stated DFAS would assist the military services in validating the remaining potentially
invalid accounts. If applicable, Military Pay Operations, DFAS will initiate action to
recover any improper payments made to the invalid military pay accounts. Corrective
actions will be completed by January 1, 2012.

Our Response
The comments from the Chief, Current Operations Branch, Department of the Army; the
Assistant Secretary of the Navy (Manpower and Reserve Affairs); the Deputy Director of
Staff, U.S. Air Force Personnel Center; and the Deputy Director, Operations, DFAS,
were responsive, and the actions meet the intent of the recommendations.




                                            9

Appendix A. Scope and Methodology
We conducted this performance audit from March 2010 through May 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To review the validity and security of active duty military personnel accounts, we
evaluated U.S. Army, U.S. Navy, and U.S. Air Force officer appointment and enlistment
processes. We also evaluated DJMS-AC payroll processing and payroll disbursement
procedures. In addition, we reviewed payroll data from DJMS-AC.

From January 2005 through December 2009, DJMS-AC contained nearly 2.1 million
active duty military personnel accounts, with basic pay totaling more than $232 billion.
DJMS-AC does not include active duty military members from the U.S. Marine Corps.

Using Audit Command Language, we reviewed the nearly 2.1 million active duty
military personnel accounts to identify accounts containing invalid SSNs and multiple
military personnel that shared the same bank account. Additionally, we provided the
nearly 2.1 million accounts to the Defense Manpower Data Center to identify accounts of
military personnel that were never issued CACs and accounts that contained a date of
death.

On the basis of these reviews, we identified 1,159 potentially invalid accounts, with basic
pay totaling more than $76.5 million. For this audit, we defined potentially invalid
accounts as those that contained invalid SSNs, deceased military personnel that were paid
after their reported date of death, military personnel that were never issued CACs, and
multiple military personnel that shared the same bank account.

We identified numerous potentially invalid accounts that contained multiple invalid
account indicators. For example, an active duty military personnel account could include
an invalid SSN and no CAC issued. See Table A for a summary of accounts by invalid
account indicator.




                                            10

             Table A. Summary of Accounts by Invalid Account Indicator
              Invalid                 Number                    Total
         Account Indicator          of Accounts               Basic Pay
  Invalid SSN                              7                    $492,374
  Paid After Date of Death                34                     790,229
  No CAC Issued                          356                   1,958,875
  Shared Bank Account                    580                  72,792,433
  Multiple Indicators                   182*                     473,106
     Total                             1,159                 $76,507,017
*The 182 accounts with multiple indicators are not the same accounts contained in the statistical sample of
182 potentially invalid accounts selected for the audit.

We selected a statistical sample of 182 potentially invalid accounts to determine whether
they were valid. See Appendix B for the statistical sampling plan. We requested active
duty military personnel file documentation from the Military Services and DFAS Military
Pay to validate the sample selected. We reviewed all supporting documentation provided
to determine the validity of the accounts; however, we did not verify the accuracy of any
payments made to active duty military personnel accounts. We also evaluated the
security of selected active duty military personnel accounts.

To accomplish the audit objective, we performed the following tasks.

    •	 We contacted representatives from the Under Secretary of Defense 

       (Comptroller)/Chief Financial Officer to identify their responsibilities for

       ensuring the validity of active duty military personnel accounts.


    •	 We met with representatives from the U.S. Army, U.S. Navy, and U.S. Air Force
       personnel offices to determine the officer appointment and enlistment processes
       that resulted in DJMS-AC accounts. We reviewed DD Forms 4 and 1966 and
       other personnel file documentation to validate some of the sample. We also
       obtained class rosters from the U.S. Military Academy at West Point and the U.S.
       Air Force Academy to validate foreign cadets.

    •	 We met with representatives from DFAS Military Pay, Cleveland, Ohio, and
       Indianapolis, Indiana, to determine the payroll process for active duty military
       personnel accounts. Specifically, we reviewed payroll processes, roles and
       responsibilities of payroll personnel, payroll standard operating procedures, and
       some system and access controls. Additionally, a DFAS Military Pay,
       Indianapolis, representative provided military pay account information to validate
       selected active duty military personnel accounts.

    •	 We met with representatives from the DFAS Special Review Office, Indianapolis,
       to discuss the security of selected accounts in DJMS-AC. Specifically, we
       discussed how DJMS-AC restricts access to selected active duty military
       personnel account information.


                                                    11

   •	 We met with representatives from DFAS Disbursing Operations to determine the
      disbursement process for active duty military personnel accounts. Specifically,
      we reviewed the active duty military disbursement process and roles and
      responsibilities of disbursing personnel.

Use of Computer-Processed Data
To perform this audit, we used data that originated in DJMS-AC, which is the official
payroll system for active duty U.S. Army, U.S. Navy, and U.S. Air Force personnel. We
determined data reliability by reviewing existing information about DJMS-AC and
interviewing knowledgeable agency officials. Additionally, we assessed data reliability
by comparing DD Forms 4 and 1966, class rosters, and other personnel file
documentation to active duty military personnel accounts reported in DJMS-AC. On the
basis of this work, we concluded that the data were sufficiently reliable for the purpose of
our review.

Use of Technical Assistance
The DoD Office of Inspector General, Office of Auditing, Quantitative Methods and
Analysis Division, assisted with identifying the SSNs never issued by SSA. It also
assisted with the project sample and projection of results (see Appendix B).

Prior Coverage
No prior coverage has been conducted on determining the validity and security of active
duty military personnel accounts during the last 5 years.




                                            12

Appendix B. Statistical Sample and
Projection Plan
Population
The population consisted of 1,159 potentially invalid active duty military personnel
accounts that received more than $76.5 million in basic pay from January 2005 through
December 2009.

Sample Plan
The DoD Office of Inspector General, Office of Auditing, Quantitative Methods and
Analysis Division, used a stratified sampling design for this project. It stratified the
population into 3 strata and selected a statistical sample of 182 active duty military
personnel accounts that received basic pay totaling almost $6.7 million. See Table B-1
for the population and sample plan.

                      Table B-1. Population and Sample Plan
  Stratum                  Population Size     Sample Size              Sample Value
  SSNs with three invalid            3               3                       $1,143
  account indicators
  SSNs with two invalid            179              80                       159,011
  account indicators
  SSNs with one invalid            977              99                     6,510,482
  account indicators
    Total                        1,159             182                    $6,670,636


Analysis and Interpretation
Through analysis of each active duty military personnel account contained in the random
sample, we identified seven potentially invalid accounts with improper payments totaling
$436,248. Table B-2 provides our projection of these amounts across the population at a
90-percent confidence level.

      Table B-2. Projection of Accounts and Potentially Improper Payments
                                Potentially Invalid      Potentially Improper
                                    Accounts                  Payments
  Upper bound                           85                    $8,500,000
  Point estimate                        46                    $4,200,000
  Lower bound                             7                     $436,248




                                            13

Department of the Army Comments





                  Click to add JPEG file
Department of the Navy Comments





                  Click to add JPEG file




                                 15
Click to add JPEG file




               16
Click to add JPEG file




               17
Department of the Air Force Comments





                   Click to add JPEG file




                                  18
Click to add JPEG file




               19
Defense Finance and Accounting Service Comments





                  Click to add JPEG file




                                 20
Click to add JPEG file




               21
